No. 20-812
LISA M. FOLAJTAR,

Petitioner,
V.

MERRICK B. GARLAND, ATTORNEY GENERAL, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. l(h), I, John D. Ohlendorf, a
member of the Supreme Court Bar, certify that the REPLY BRIEF FOR PETITIONER in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.l(b), being prepared in Century Schoolbook 12 point
for the text and 10 point for the footnotes, and that this brief complies with the
word limitation of Supreme Court Rule 33. l(g)(iii), containing 2,999 words, excluding the parts that are exempted by Supreme Court Rule 33. l(d).

Date: March 29, 2021

